Judd E. Stone II
Solicitor General

(512) 936-1700
Judd.Stone@oag.texas.gov

September 17, 2021
Via E-File
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
sharris@supremecourt.gov
Re: Hearn et al. v. McCraw et al., No. 21-130, Motion to Extend Time to File
Response to Petition for Writ of Certiorari
Dear Mr. Harris:
Pursuant to Supreme Court Rule 30.4, Respondents respectfully move for an
extension of the time for filing a response to the petition for writ of certiorari in the
above captioned and numbered matter.
This Court requested a response on September 2, 2021, and that response is
currently due on October 4, 2021. This motion is supported by good cause and is not
sought for purposes of delay. A 30-day extension, until November 3, 2021, is needed
because of the press of business from numerous, complex matters with deadlines
near the current deadline—all of which require significant time and attention from
the undersigned counsel and other counsel assisting with this matter—including:
• Wardrip v. Lumpkin, No. 21-5226 in this Court (capital case) (brief in
opposition due September 27);
• Texas Department of Public Safety v. K.T., Nos. 20-0977 & 21-0075 in the
Supreme Court of Texas (reply brief due September 22);
• Texas v. Haaland, et al., No. 21-378 in this Court (petition for a writ of
certiorari ﬁled September 3);

P os t Of fic e Box 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. texa satto r neyg eneral .gov

Page 2
• Texas, et al. v. Rettig, et al., No. 21-379 in this Court (brief in opposition due
November 8);
• Whole Woman’s Health, et al., v. Jackson, et al., No. 21A24 in this Court
(response to application ﬁled August 31);
• In re Abbott, No. 21-0720 in the Supreme Court of Texas (reply in support of
emergency motion for temporary relief ﬁled August 25);
• In re Abbott, No. 08-21-00140-CV in the Texas Court of Appeals for the Eighth
Judicial District (reply in support of emergency motion for temporary relief
ﬁled August 25); and
• Biden, et al. v. Texas, et al., No. 21A21 in this Court (response to application
ﬁled August 24); and
• Ramirez v. Collier, et al., No. 21-5592 in this Court (capital case) (petitioner’s
brief on the merits due September 24, set for argument November 1).
Further, the undersigned counsel as well as counsel assisting in this matter have
been embroiled in numerous emergency matters in recent weeks arising from the
Texas Legislature’s recent second special session and from Texas’s response to the
ongoing resurgence of COVID-19 cases, including filing briefs or requests for
emergency relief in the following matters:
•
•
•
•
•
•
•
•
•

In re Abbott, No. 05-21-00687-CV, Fifth Court of Appeals, Dallas;
In re Abbott, No. 21-0686, Supreme Court of Texas;
In re Abbott, No. 04-21-00336-CV, Fourth Court of Appeals, San Antonio;
In re Abbott, No. 21-0687, Supreme Court of Texas;
In re Abbott, No. 21-0720, Supreme Court of Texas;
In re Abbott, No. 01-21-00440-CV, First Court of Appeals, Houston;
In re Abbott, No. 21-0701, Supreme Court of Texas;
In re Abbott, No. 08-21-00140-CV, Eighth Court of Appeals, El Paso;
In re Abbott, No. 04-21-00349-CV, Fourth Court of Appeals, San Antonio.

No prejudice would arise from the requested extension, and the Petitioner does
not oppose this extension.

Page 3
For the foregoing reasons, Respondents respectfully request an extension of the
deadline for filing a response to the petition for writ of certiorari, creating a new
deadline of November 3, 2021.
Sincerely,
/s/ Judd E. Stone II
JUDD E. STONE II
Solicitor General
Counsel of Record
Office of the Attorney General
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
Tel.: (512) 936-1700
Fax: (512) 474-2697
Judd.Stone@oag.texas.gov
Counsel for Respondents Steven McCraw
and Sheila Vasquez
cc:

William T. Habern (Counsel of Record for Petitioners)

